Highlights
Table of Contents




                    Undeliverable
                    as Addressed
                    Mail
Findings
Recommendations




                    Audit Report
                    Report Number
                    MS-AR-14-006

                    July 14, 2014
Appendices




                                    Print
Highlights
Table of Contents




                    Highlights                          Background                                                          What the OIG Found
                                                        The U.S. Postal Service processed more than 158 billion             The Postal Service has taken action to reduce and recover UAA
                                                        mailpieces in fiscal year (FY) 2013. Of those, it identified        mail costs by testing whether business mailers update their
                                                        almost 6.8 billion pieces (4.3 percent) as undeliverable as         mailing lists regularly and assessing surcharges when mailings
                     The Postal Service has taken       addressed (UAA) — mail that could not be delivered to the           fail to meet an address accuracy threshold. The Postal Service,
Findings




                                                        address on the mailpiece. Causes for UAA mail include               however, does not effectively or equitably determine surcharge
                      action to reduce and recover
                                                        individuals or businesses moving, illegible addresses, or           amounts and does not always assess them. The Postal Service
                       UAA mail costs by testing        deceased addressees. Depending on the mail class, UAA mail          also automatically tests only 3 percent of mail for address
                                                        is forwarded, returned to sender, or treated as waste.              accuracy and does not track UAA mail volume by mailer.
                    whether business mailers update
                                                        The Postal Service estimated it cost $1.5 billion in FY 2013        The Postal Service could reduce and recover UAA mail costs by
                    their mailing lists regularly and
                                                        to process UAA mail. Reducing UAA mail is important to the          updating the amount and assessment of surcharges, increasing
                      assessing surcharges when         Postal Service, which faces sizeable cost pressures, and to         the address accuracy threshold, expanding mail verification,
Recommendations




                                                        mailers who want to ensure their mailings reach their intended      and tracking UAA volume by mailer.
                    mailings fail to meet an address    recipients. Our objective was to identify opportunities to reduce
                                                        and recover costs associated with UAA mail.
                          accuracy threshold.


                                                                                    How much did it cost to process
                                                                              undeliverable as addressed mail in FY 2013?
Appendices




                                                                                                                                                   Print                                 1
Highlights
Table of Contents




                    We estimate these actions could have multiple benefits. First,    What the OIG Recommended
                    they could generate additional revenue. Use of these strategies
                                                                                      We recommended the Postal Service develop strategies to
                    would have increased revenue by $11.9 million in FY 2013.
                                                                                      improve pricing and recover costs associated with UAA mail
                    Second, the Postal Service would more equitably recover
                                                                                      to include enhancing the methodology used to determine
                    costs from those mailers responsible for UAA mail. Third, such
                                                                                      surcharge amounts and increasing the address accuracy
                    incentives would be consistent with legal requirements that
                                                                                      threshold. We also recommended enhancing the assessment
                    the Postal Service maximize incentives to reduce costs and
Findings




                                                                                      of surcharges, expanding mail verification by increasing the
                    increase efficiency.
                                                                                      number of mailings tested using automated address verification,
                                                                                      and tracking UAA mail volume by mailer.
Recommendations
Appendices




                                                                                                             Print                                 2
Highlights
                    Transmittal Letter


                                         July 14, 2014
Table of Contents




                                         MEMORANDUM FOR:	           CYNTHIA SANCHEZ-HERNANDEZ
                                         				                       VICE PRESIDENT, PRICING

                                         				                       PRITHA N. MEHRA
                                         				                       VICE PRESIDENT, MAIL ENTRY
                                         				                       AND PAYMENT TECHNOLOGY

                                                                        E-Signed by Janet Sorensen
                                                                   VERIFY authenticity with eSign Desktop

                                         				

                                         FROM: 			                  Janet M. Sorensen
Findings




                                         				                       Deputy Assistant Inspector General
                                         				                        for Revenue and Resources

                                         SUBJECT: 	                 Audit Report – Undeliverable as Addressed Mail
                                                                    (Report Number MS-AR-14-006)

                                         This report presents the results of our audit of Undeliverable as Addressed Mail (Project
                                         Number 13RG026MS000).
Recommendations




                                         We appreciate the cooperation and courtesies provided by your staff. If you have any
                                         questions or need additional information, please contact Joe Wolski, director, Sales and
                                         Marketing, or me at 703-248-2100.

                                         Attachment

                                         cc:	 Corporate Audit and Response Management
Appendices




                                                                                                             Print                   3
Highlights
                    Table of Contents

                                                      Cover
                                                      Highlights.......................................................................................................1
                                                       Background.................................................................................................1
                                                       What the OIG Found...................................................................................1
Table of Contents




                                                       What the OIG Recommended.....................................................................2
                                                      Transmittal Letter...........................................................................................3
                                                      Findings.........................................................................................................5
                                                       Introduction.................................................................................................5
                                                       Conclusion..................................................................................................6
                                                       Pricing Opportunities...................................................................................7
                                                         Surcharge Amount....................................................................................7
                                                         Assessment of Surcharges......................................................................7
                                                         Move Update Standard............................................................................8
                                                       Verification Opportunities............................................................................8
Findings




                                                       Tracking Undeliverable as Addressed Mail.................................................9
                                                      Recommendations......................................................................................10
                                                       Management’s Comments........................................................................10
                                                       Evaluation of Management’s Comments.................................................. 11
                                                      Appendices..................................................................................................12
Recommendations




                                                       Appendix A: Additional Information...........................................................13
                                                         Background ...........................................................................................13
                                                         Objective, Scope, and Methodology.......................................................15
                                                         Prior Audit Coverage..............................................................................15
                                                       Appendix B: Monetary and Other Impacts................................................16
                                                         Monetary Impacts...................................................................................16
                                                         Other Impact...........................................................................................16
                                                       Appendix C: Management’s Comments...................................................17
                                                      Contact Information.....................................................................................19
Appendices




                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                                                  Print    4
Highlights
                    Findings                               Introduction
                                                           This report presents the results of our self-initiated audit of Undeliverable as Addressed (UAA) Mail (Project Number
                                                           13RG026MS000). Our objective was to identify opportunities to reduce and recover costs associated with UAA mail. See
                                                           Appendix A for additional information about this audit.

                                                           The U.S. Postal Service processed more than 158 billion mailpieces in fiscal year (FY) 2013. Of those, it identified almost
                        Given the magnitude of UAA         6.8 billion pieces (4.3 percent) as UAA — mail the Postal Service could not deliver to the address on the mailpiece. People moving
                                                           (40 million Americans move each year) and incorrect or illegible addresses are key causes of UAA mail. The Postal Service spent
Table of Contents




                          mail-related costs and the       $1.5 billion1 in FY 2013 to process UAA mail that was forwarded, returned, or treated as waste2 or dead mail. Specific UAA
                                                           mail-related costs in FY 2013 were:
                       other sizeable cost pressures
                          throughout Postal Service        ■■ $244 million for forwarded mail.

                       operations, it is crucial for the   ■■ $769 million for returned mail.

                          Postal Service to continue       ■■ $258 million for waste.

                             finding ways to reduce        ■■ $202 million for administrative costs.
                                   UAA mail costs.
                                                           The cost of handling and disposing of UAA mail for any class or product is included in the total cost of that product.3 These costs
Findings




                                                           are incorporated into postage paid by retail customers and business mailers. Most UAA mail is First-Class Mail (FCM) or Standard
                                                           Mail. About 2.8 percent of FCM revenue in FY 2013 went to cover the $828 million in UAA costs from FCM. UAA FCM volume was
                                                           2.4 billion pieces (about 3.7 percent of total FCM volume).

                                                           UAA mail is not classified as a product or service; therefore, its costs are not directly measured in Postal Service costing systems
                                                           or itemized in its annual Cost and Revenue Analysis (CRA) report.4 Instead, the Postal Service relies on estimates based on
                                                           annual updates to a UAA cost model originally developed by a contractor (Christensen Associates) in 2004.
Recommendations




                                                           1	 The $1.5 billion in UAA costs includes $202 million for administrative costs.
Appendices




                                                           2	 Waste mail can include recycled mailpieces.
                                                           3	 The Postal Accountability and Enhancement Act (PAEA) of 2006, Public Law 109-435, Section 3622, requires each mail class or service to bear the direct and indirect
                                                              postal costs attributable to that class or service through reliably identified causal relationships plus that portion of all other costs of the Postal Service reasonably
                                                              assignable to such class or type.
                                                           4	 The Postal Service prepares the CRA report annually as part of the PAEA reporting requirements. The Postal Regulatory Commission (PRC) uses information in the CRA
                                                              report to determine whether the Postal Service complied with the statutory requirement that each class or type of mail service bear direct and indirect costs attributable to
                                                              it.
                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                                                                     Print                                                    5
Highlights                                                The Postal Service has taken pricing- and verification-related actions to reduce UAA mail. For example, recognizing that change-
                                                          of-address (COA) is a key cause of UAA mail, the Postal Service developed standards to test whether business mailers update
                                                          their mailing lists regularly. Specifically, if a mailer fails to meet a 70 percent address accuracy threshold, as part of Move Update,5
                                                          the Postal Service assesses the mailer a 7 cent surcharge on the portion of the mail that exceeded the 30 percent tolerance.6 The
                                                          Postal Service began assessing the surcharge for both FCM and Standard Mail in January 2010. In November 2010, the Postal
                                                          Service filed a proposal with the PRC to increase this threshold to 75 percent but tabled the plan after the PRC said it would
                                                          impact the Postal Service’s price adjustment authority.7 
                       The Postal Service has taken
                                                          While the Postal Service has established the Move Update threshold, it has a limited ability to verify mail to determine Move
Table of Contents




                        action to reduce and recover
                                                          Update compliance. To address this, the Postal Service is developing additional ideas to promote mailer address quality as part
                          UAA mail costs by testing       of planned mail verification enhancements through its seamless acceptance initiative.8 Currently, only 3 percent of the mail is
                                                          examined to verify it is meeting Move Update requirements. In October 2014, the Postal Service plans to transition to a process
                    whether business mailers update       whereby it will verify all mail that goes through seamless acceptance for Move Update requirements. Doing so would not only help
                                                          identify more mailings with poor or outdated addresses, but it would also incentivize mailers to update the frequency and accuracy
                      their mailing lists regularly and
                                                          of their mailing lists. Currently, the Postal Service is not charging mailers for Move Update errors in seamless acceptance.
                    assessing surcharges for mailers      Additional information on these actions and other UAA-related information is in Appendix A.

                         failing an address accuracy      Given the magnitude of UAA mail-related costs and the other sizeable cost pressures throughout Postal Service operations, it
                                                          is crucial for the Postal Service to continue finding ways to reduce UAA mail costs. These efforts, which will benefit mailers by
                            threshold of 70 percent.
                                                          ensuring mail is reaching intended recipients, should also bring the Postal Service into compliance with the legal requirement that
                                                          it maximize incentives to reduce costs and increase efficiency.9
Findings




                                                          Conclusion
                                                          The Postal Service has taken action to reduce and recover UAA mail costs by testing whether business mailers update their
                                                          mailing lists regularly and assessing surcharges for mailers failing an address accuracy threshold of 70 percent. The
                                                          Postal Service, however, does not effectively or equitably determine the amount of surcharges and does not always assess them.
                                                          The Postal Service also automatically tests only 3 percent of mail for address accuracy and does not track UAA mail volume
Recommendations




                                                          by mailer. The Postal Service could reduce and recover UAA mail costs by updating the amount and assessment of related
                                                          surcharges, increasing the address accuracy threshold, expanding mail verification, and tracking UAA volume by mailer.

                                                          We estimate these actions could have multiple benefits. First, we estimate the actions could generate additional postal revenue.
                                                          The Postal Service could have earned $11.9 million in FY 2013 (see Appendix B for monetary impact) from these strategies.
                                                          Second, the Postal Service would more equitably recover costs from those responsible for UAA mail, and third, they would bring
                                                          the Postal Service into compliance with legal requirements to maximize incentives to reduce costs and increase efficiency.



                                                          5	 Move Update is a requirement for presorted and automation FCM service and for all Standard Mail service that helps reduce the number of mailpieces in a mailing that
                                                             may require forwarding or return due to inaccurate addresses.
                                                          6	 As part of the Move Update verification process, the Postal Service does not assess a surcharge for all of the mailpieces with addresses that were not updated within the
Appendices




                                                             previous 95 days but only for the mailpieces above the 70 percent threshold. For example, if Postal Service testing identified that 65 percent of the addresses within tested
                                                             mailpieces were updated within the past 95 days, a surcharge would be assessed on 5 percent of all mailpieces in that mailing (the difference between the testing result,
                                                             65 percent, and the Postal Service’s threshold, 70 percent).
                                                          7	 Price adjustment authority is the amount the Postal Service can adjust prices in a particular class pursuant to the PAEA.
                                                          8	 Seamless acceptance enables an automated verification process by comparing systems’ data to electronic documentation at the time of induction and as mail is
                                                             processed on automated postal equipment.
                                                          9	 Public Law 109-435, 120 Statute 3201, 39 U.S.C., Section 3622 (b)(1).
                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                                                                   Print                                                6
Highlights                                            Pricing Opportunities
                                                      The Postal Service can enhance its pricing to recover and reduce UAA mail-related costs. The Postal Service does not effectively
                                                      or equitably determine the amount of surcharges and does not always assess those surcharges due to system-related issues.
                                                      It should also consider raising the Move Update threshold. A higher threshold would encourage mailers to more frequently and
                                                      accurately update their mailing lists and could help the Postal Service recover more UAA mail-related costs by more equitably
                                                      assessing surcharges. By improving the amount and assessment of these surcharges and increasing the Move Update threshold,
                                                      the Postal Service could enhance its ability to recover and reduce UAA mail-related costs and more equitably assign those costs to
                                                      the mailers that incurred them.
Table of Contents




                                                      Surcharge Amount
                                                      The Postal Service does not effectively or equitably determine the amount of the surcharge for the mailings that do not meet the
                                                      Move Update threshold. The current Move Update assessment surcharge of 7 cents (which was established in 2008 based on
                                                      the difference between the workshare discounted rates and FCM single-piece rates) is applied equally to FCM and Standard Mail.
                                                      Because there is no single-piece Standard Mail rate, the Postal Service determined the 7 cents assessment should provide a
                                                      substantial incentive to encourage customers to adopt Move Update processes, while still being reasonable.

                                                      Considering postage rates have changed since 2008, the Postal Service should revisit the methodology used to determine the
                                                      Move Update surcharge. In addition, the Postal Service could consider using a cost-based methodology to establish the surcharge
                                                      assessment based on the processing costs of UAA mail across mail classes. The Postal Service must forward FCM identified as
                                                      UAA or returned; however, Standard Mail identified as UAA is typically disposed of as waste.10 The Postal Service could consider
Findings




                                                      revising the surcharge to more accurately reflect UAA mail costs across mail classes. Making these changes would send more
                                                      appropriate price signals to recover these costs.

                                                      The Postal Service is considering updating the methodology for determining surcharges through seamless acceptance by charging
                                                      mailers the difference between the single-piece rate and the postage paid for each mailpiece that does not meet move update
                                                      compliance. Mailers who participate in the seamless acceptance program must use the Full-Service Intelligent Mail barcode (IMb);
                                                      however, as of the end of February 2014, only 74 percent of all commercial mail was eligible for the Full-Service IMb.
Recommendations




                                                      Assessment of Surcharges
                                                      The Postal Service did not assess Move Update surcharges for 1,239 mailings in FYs 2012 and 2013 that failed to meet the
                                                      70 percent threshold.11 Officials stated they likely did not assess these surcharges due to system-related issues. Specifically,
                                                      these issues were either communication breakdowns among any of the three systems used in this process — Mail Evaluation
                                                      Readability Lookup Instrument (MERLIN), National Customer Support Center, and PostalOne! — or individual system
                                                      malfunctions. Correcting system-related issues should enable the Postal Service to collect surcharge revenue more effectively. We
                                                      estimated the Postal Service lost $1.82 million in revenue in FYs 2012 and 2013 by not assessing these surcharges. Additional
                                                      information on this monetary impact calculation is in Appendix B.
Appendices




                                                      10	 Domestic Mail Manual 507, Section 1.4.1, mail that is UAA is forwarded, returned to the sender, or treated as dead mail, as authorized for the particular type of mail. All
                                                          nonmailable pieces are returned to the sender.
                                                      11	 We retrieved this data from the Enterprise Data Warehouse: Business Mail Acceptance - Mail Acceptance Verification Report - FYs 2012 and 2013.
                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                                                                 Print                                                  7
Highlights                                            Move Update Standard
                                                      The current Move Update threshold is not set at a level that sufficiently deters UAA mail. Nearly all mailings selected for
                                                      verification passed the 70 percent threshold. For example, in FY 2013, 99.3 percent of verified mailings passed the threshold.
                                                      The Postal Service identified this issue and, in 2010, submitted a request to the PRC to increase the Move Update assessment
                                                      threshold to 75 percent. But the Postal Service tabled that proposal after the PRC determined it would impact the Postal Service’s
                                                      price adjustment authority.12 

                                                      The Postal Service should propose a regulatory change to increase the Move Update assessment threshold. A higher threshold
Table of Contents




                                                      would encourage mailers to more frequently and accurately update their mailing lists and could help the Postal Service recover
                                                      more of its UAA mail-related costs by more equitably assessing surcharges. We estimate that if the Postal Service had increased
                                                      the threshold to 75, 80, or 85 percent, it would have collected additional revenue of $383,869, $904,348, or $1,598,162,
                                                      respectively, in FYs 2012 and 2013. Additional information on this monetary impact calculation is in Appendix B.

                                                      Verification Opportunities
                                                      The Postal Service can enhance its mail verification process to drive reductions in UAA mail costs. The amount of mail verified is
                                                      determined by a performance-based verification (PBV) model in PostalOne!. This model generates the verification frequency and
                                                      sample size for each mail preparer based on its past performance and the mailing size. Currently, only 3 percent of mailings are
                                                      verified for Move Update requirements.13 Considering the $1.5 billion in UAA mail-related costs in FY 2013, this relatively small
                                                      testing sample is not sufficient to detect UAA mail.
Findings




                                                      Postal Service officials stated that seamless acceptance will increase the amount of mail that is automatically tested for Move
                                                      Update compliance and more effectively assess related surcharges. A limited, but growing, number of mailers are currently
                                                      using seamless acceptance. Expanding mail verification by increasing the number of mailings tested using automated address
                                                      verification may help identify mailers who are not meeting Move Update standards and enable the Postal Service to collect
                                                      additional revenue through surcharges.

                                                      We estimate the Postal Service could have collected additional postage revenue of $19.9 million in FY 2012 and $11.6 million in
Recommendations




                                                      FY 2013 if it had verified all mailings were meeting Move Update requirements. Additional information on this monetary impact
                                                      calculation is in Appendix B.



                                                                                                                                                         ...it would have collected
                                                                                                                                                            additional revenue of:

                                                                                                                                          75%%
                                                                                                                                          80%
                                                                                                                                          85
Appendices




                                                      12	 The PRC determined that any change to the Move Update assessment amount or the threshold has price cap implications and requires regulatory approval. See Docket
                                                          Number R2011-1, Final Order Number 606.
                                                      13	 The Postal Service selected about 3 percent of FCM and Standard Mail for MERLIN verification, including Move Update validation.
                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                                                        Print                                                8
Highlights                                            Tracking Undeliverable as Addressed Mail
                                                      The Postal Service has an opportunity to reduce future UAA mail-related costs by enhancing its ability to track UAA volume by
                                                      mailer. While the Postal Service has limited ability to track these volumes by mailers using the Full-Service IMb program, there
                                                      is no system in place to capture this information for some major segments of mail. Also, if mailers subscribe to Address Change
                                                      Services (ACS),14 they will know whether their mailpieces have been forwarded and returned, but they will not know whether their
                                                      mail is disposed of as waste.

                                                      Postal Service officials stated that establishing a system to track mail volume by mailer has been, and will likely continue to be,
Table of Contents




                                                      cost-prohibitive, as it would necessitate operational and systems enhancements. We spoke with major mailing organizations
                                                      about UAA mail-related issues and some mailers indicated they do not know how much of their mail is UAA. In addition, mailers
                                                      expressed concerns that secondary information such as apartment numbers, while usually known by the Postal Service, is not
                                                      provided through the ACS program. Having this information would help mailers determine whether they are reaching their intended
                                                      recipients.

                                                      While we recognize the complexities and costs associated with collecting this type of data, there are a number of reasons it might
                                                      be beneficial to the Postal Service. First, this information would improve the Postal Service’s ability to make address corrections
                                                      and communicate them to those responsible for UAA mail. Second, it would help mailers identify successfully delivered mailpieces
                                                      and determine the causes of any UAA mail. Third, it may motivate mailers to update their Move Update mailing lists more
                                                      frequently.
Findings
Recommendations
Appendices




                                                      14	 An electronic enhancement to traditional, manual methods of providing COA information to mailers.
                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                                              Print                      9
Highlights
                    Recommendations                     We recommend the vice president, Pricing, develop strategies to improve pricing and recover costs associated with undeliverable
                                                        as addressed mail by:

                                                        1.	 Enhancing the methodology used to determine surcharge amounts.

                                                        2.	 Considering pursuing a regulatory change to increase the Move Update threshold.

                                                        We recommend the vice president, Mail Entry and Payment Technology, develop strategies to reduce and recover costs
                      Among others, we recommend        associated with undeliverable as addressed mail by:
Table of Contents




                          the Postal Service develop
                                                        3.	 Enhancing the assessment of surcharges, which may include addressing system-related issues.
                    strategies to improve pricing and
                                                        4.	 Expanding mail verification by increasing the number of mailings tested using automated address verification.
                       recover costs associated with
                                                        5.	 Tracking undeliverable as addressed mail volume by mailer.
                      UAA mail to include enhancing
                           the methodology used to      Management’s Comments
                                                        Management partially agreed with recommendation 1. However, they noted that in a rate cap environment, the expected return on
                      determine surcharge amounts       investment on a price increase for a penalty intended to discourage the volume the price is associated with may be lower than a
                         and increasing the address     price increase on a nonpenalty price. When preparing for the next price change, which has not been scheduled, management will
                                                        evaluate the methodology used to determine the surcharge amounts and provide that analysis by January 2015.
Findings




                                accuracy threshold.
                                                        Management partially agreed with recommendation 2 but noted that if they decide to change the threshold, the Postal Service
                                                        must determine the number of additional mailpieces that would have been assessed the Move Update fee as a result of
                                                        noncompliant mailings. Effectively, each additional piece assessed a fee will get a 7 cent price increase. This will require the
                                                        Postal Service to allocate a portion of its limited price change authority to implement any change. Management will evaluate this
                                                        with its next price change and provide that analysis by January 2015. Management also agreed with the other impact in the report.
                                                        See Appendix C for management’s comments, in their entirety.
Recommendations




                                                        Management did not provide official comments to recommendations 3, 4, and 5.
Appendices




                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                                  Print                                10
Highlights                                            Evaluation of Management’s Comments
                                                      The U.S. Postal Service Office of Inspector General (OIG) considers management’s comments responsive to recommendations
                                                      1 and 2 and corrective actions should resolve the issues identified. For recommendations 1 and 2, we agree any change to
                                                      the surcharge amount and threshold will impact the Postal Service’s price change authority. We also continue to believe that
                                                      increasing the surcharge amount and the threshold would encourage mailers to more frequently and accurately update their
                                                      mailing lists and could help the Postal Service reduce its UAA mail-related costs.

                                                      As of July 9, 2014, management has not provided an official response for recommendations 3, 4, and 5. Consequently, we are
Table of Contents




                                                      issuing this report without management’s comments for these recommendations.

                                                      The OIG considers all the recommendations significant, and therefore requires OIG concurrence before closure. Consequently,
                                                      the OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                      Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Findings
Recommendations
Appendices




                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                             Print                                   11
Highlights
                    Appendices
                                                          Appendix A: Additional Information...........................................................13
                                                           Background ...........................................................................................13
                                                           Objective, Scope, and Methodology.......................................................15
                                                           Prior Audit Coverage..............................................................................15
                                                          Appendix B: Monetary and Other Impacts................................................16
Table of Contents




                                                           Monetary Impacts...................................................................................16
                                                           Other Impact...........................................................................................16
                     Click on the appendix title to the
                                                          Appendix C: Management’s Comments...................................................17
                      right to navigate to the section
                                          content.
Findings
Recommendations
Appendices




                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                             Print                     12
Highlights          Appendix A:                       Background
                    Additional Information            The Postal Service identifies 6.8 billion mailpieces as UAA mail annually. There are a number of reasons why mail is undeliverable,
                                                      such as an individual or business moving, an incomplete address, an illegible or incorrect address, an unknown or deceased
                                                      addressee, or an addressee who refuses or fails to claim the mail. Unpaid postage or addressees refusing mail before or after
                                                      delivery are also reasons mail is undeliverable.

                                                      The Postal Service estimates processing UAA mail for FY 2013 cost $1.5 billion — $244 million for forwarded mail, $769 million
                                                      for returned mail, $258 million for waste, and $202 million for administrative costs related to COA and address correction activities.
Table of Contents




                                                      Figure 1 shows that, overall, returned mail has been the most costly way of handling UAA mail over the past 3 years.

                                                      Figure 1: UAA Mail Costs for FYs 2011 – 2013
Findings




                                                      Source: Postal Service and Christensen Associates UAA cost model.
Recommendations
Appendices




                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                                  Print                                  13
Highlights                                            Figure 2 shows that UAA waste mail volume represented the highest amount of UAA mail over the past 3 years.

                                                      Figure 2: UAA Mail Volume for FYs 2011 – 2013
Table of Contents




                                                      Figure 2: UAA Mail Volume for FYs 2011 – 2013




                                                      Source: Postal Service and Christensen Associates UAA cost model.



                                                      The Postal Service is considering several initiatives to reduce UAA costs and volume. The Postal Service plans to introduce a
                                                      Secure Destruction program so UAA mail can be destroyed at a facility rather than returned. This will save the Postal Service
                                                      the cost of returning mail by converting it to waste mail, which can later be destroyed. Additionally, there are plans to consolidate
Findings




                                                      Postal Automated Redirection System (PARS) and Computerized Forwarding System (CFS) facilities. Another initiative is the use
                                                      of PARS for flats technology, which will allow UAA flats to be processed in an automated environment to reduce manual handling

                                                      The Postal Service also has taken productive steps in mail verification, such as developing a PBV model to identify mailings that
                                                      do not comply with Move Update standards15 and deploying mail verification enhancements through its seamless acceptance
                                                      initiative.

                                                      The Move Update standard is a way to reduce the number of mailpieces in a mailing that must be forwarded or returned. Mailers
Recommendations




                                                      periodically match their address records with COA orders the Postal Service receives and maintains. Mailers who claim presorted
                                                      or automation prices for FCM or Standard Mail must demonstrate that they have updated their mailing lists within 95 days before
                                                      the mailing dates.

                                                      The Postal Service offers three preapproved ways to meet Move Update standards — the ACS, the National COA Linkage
                                                      System, and Ancillary Service endorsements (except for Forwarding Service Requested). The Postal Service also offers
                                                      alternatives that require separate approval for FCM. Mailers must use one of the preapproved or alternative methods to meet the
                                                      Move Update standard. Bulk mail entry unit clerks test selected mailpieces with MERLIN to verify whether mailers are meeting the
                                                      Move Update standards.
Appendices




                                                      15	 PBV generates the verification frequency and sample size for verification for each mail preparer based on its past performance and the mailing size.
                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                                                              Print                              14
Highlights                                            Objective, Scope, and Methodology
                                                      Our objective was to identify opportunities to reduce and recover costs associated with UAA mail. To accomplish our objective we
                                                      reviewed criteria, data, and documentation to identify and evaluate UAA mail-related processes and procedures; and interviewed
                                                      Postal Service officials and mailer representatives. We also reviewed special studies, policies, procedures, and manuals related to
                                                      UAA mail to gain further understanding of UAA mail processes and related operations.

                                                      To obtain the history behind UAA mail price inclusion in the postage rate, we conducted research and explored current laws and
                                                      regulations related to UAA mail. We interviewed Postal Service officials to identify related legislation, obtain general background
Table of Contents




                                                      information (including data sources), and discuss tools offered to mailers to reduce UAA mail. We obtained and analyzed UAA
                                                      mail volume and cost data and conducted site visits to observe UAA processes and procedures for MERLIN, PARS, and CFS to
                                                      identify the relationship between automated and manual UAA processes and operations. We obtained and analyzed Move Update
                                                      validation error data reports.

                                                      We conducted this performance audit from June 2013 through July 2014, in accordance with generally accepted government
                                                      auditing standards and included such tests of internal controls as we considered necessary under the circumstances. Those
                                                      standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
                                                      our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable basis for
                                                      our findings and conclusions based on our audit objective. We discussed our observations and conclusions with management on
                                                      June 4, 2014, and included their comments where appropriate.
Findings




                                                      We analyzed Move Update validation error data and assessed its reliability by having system owners review our analyses. We
                                                      compared our methodology to the Move Update surcharge assessment policy and we determined that the data were sufficiently
                                                      reliable for the purposes of this report.

                                                      Prior Audit Coverage
                                                      There were no audit reports issued in the past 3 years that directly relate to this audit.
Recommendations
Appendices




                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                                   Print                               15
Highlights          Appendix B:                       Monetary Impacts
                    Monetary and Other Impacts        Recommendation                 Impact Category                Amount
                                                      3                              Revenue Loss1                      $1,817,308
                                                      4                              Revenue Loss                       31,461,308
                                                      Total                                                            $33,278,616
                                                      1 Amount Postal Service is (or was) entitled to receive but was underpaid or not
                                                      realized because policies, procedures, agreements, requirements, or good business
                                                      practices were lacking or not followed. May be recoverable or unrecoverable. May
                                                      apply to historical events or a future period (in the sense perceived future losses
Table of Contents




                                                      may be prevented by the implementation of a recommendation)




                                                      In FYs 2012 and 2013, the Postal Service did not assess Move Update surcharges for 696 and 543 mailings, respectively,
                                                      which did not pass the 70 percent threshold. This resulted in a revenue loss of $1,585,296 and $232,011 in FYs 2012 and 2013,
                                                      respectively (or $1.82 million total).

                                                      The Postal Service conducts limited MERLIN verification — it only selected about 3 percent of mailings for MERLIN verification
                                                      during FYs 2012 and 2013. Of that percentage, about 0.7 percent did not comply with Move Update standards. Expanding mail
                                                      verification by increasing the number of mailings tested using automated address verification may help identify mailers who are not
                                                      meeting Move Update standards and enable the Postal Service to collect additional revenue through surcharges.

                                                      We applied the failed percentage to the remaining mailings that were not verified (97 percent) and estimated the Postal Service
Findings




                                                      could have collected additional postage fees of $19.9 million and $11.6 million in FYs 2012 and 2013, respectively (or $31.5 million
                                                      total).

                                                      Other Impact
                                                      Recommendation                   Impact Category                               Amount
                                                      2                                Potential Additional Revenue1                   $383,869
Recommendations




                                                      1 Revenue the Postal Service could potentially generate for goods delivered or services
                                                      rendered based on suggested improvements.




                                                      The Postal Service had an opportunity to collect additional revenue if it had not withdrawn its request to modify the Move Update
                                                      threshold to 75 percent. The Postal Service would have collected additional revenue of $238,131 and $145,737 in FYs 2012 and
                                                      2013, respectively (or $383,869 total), for mailings verified through MERLIN that did not meet Move Update standards based on
                                                      the 75 percent threshold.
Appendices




                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                                                  Print                                16
Highlights          Appendix C:
                    Management’s Comments
                                                      	
Table of Contents
Findings
Recommendations
Appendices




                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                          Print   17
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                      Print   18
Highlights
Table of Contents
Findings




                                                         Contact us via our Hotline and FOIA forms, follow us on social
                                                      networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                             or abuse. Stay informed.
Recommendations




                                                                            1735 North Lynn Street
                                                                           Arlington, VA 22209-2020
                                                                                 (703) 248-2100
Appendices




                    Undeliverable as Addressed Mail
                    Report Number MS-AR-14-006
                                                                                                                               Print   19
